App. 1
APPENDIX A
AMICUS CURIAE FEDERALLY
RECOGNIZED TRIBES ON THIS BRIEF:
Alabama
Poarch Band of Creek
Indians
Alaska
Akiachak Native
Community
Akiak Native Community
Alakanuk Tribal Council
Alatna Tribe
Aleut Community of
St. Paul Island
Tribal Government
Asa’carsarmiut Tribe
Central Council of Tlingit
& Haida Indian Tribes
of Alaska
Chinik Eskimo Community
Curyung Tribal Council
Hoonah Indian Association
Kenaitze Indian Tribe
Ketchikan Indian
Community
King Island Native
Community
Klawock Cooperative
Association
Mary’s Igloo
Traditional Council

Mentasta Traditional
Council
Native Village of Atka
Native Village of Diomede
Native Village of Elim
Native Village of Eyak
Native Village of Gakona
Native Village
of Kwigillingok
Native Village of Ouzinkie
Native Village of Paimiut
Native Village of
Port Graham
Native Village of Teller
Native Village
of Unalakleet
Native Village of Wales
Native Village of
White Mountain
Ninilchik Village Tribe
Nome Eskimo Community
Nondalton Tribal Council
Noorvik Native Community
Organized Village of Kake
Skagway Village
Sun’aq Tribe of Kodiak
Tangirnaq Native Village
(aka Woody Island)
Village of Solomon

App. 2
Arizona
Ak-Chin Indian Community
Gila River
Indian Community
Hopi Tribe
Hualapai Indian Tribe
of the Hualapai Indian
Reservation, Arizona
Kaibab Band of
Paiute Indians
Pascua Yaqui Tribe
Salt River Pima-Maricopa
Indian Community
San Carlos Apache Tribe
Tohono O’odham Nation
White Mountain
Apache Tribe
Yavapai-Apache Nation
California
Agua Caliente Band
of Cahuilla Indians
Bear River Band of the
Rohnerville Rancheria
The Big Pine Paiute Tribe
of the Owens Valley
Big Sandy Rancheria
of Western Mono
Indians of California
Big Valley Band of Pomo
Indians of the Big
Valley Rancheria

Cachil Dehe Band of
Wintun Indians of the
Colusa Community
Cahto Tribe of the
Laytonville Rancheria
Cher-Ae Heights Indian
Community of the
Trinidad Rancheria
Cloverdale Rancheria
of Pomo Indians
of California
Dry Creek Rancheria
Band of Pomo Indians
Elk Valley Rancheria,
California
Enterprise Rancheria
of Maidu Indians
of California
Ewiiaapaayp Band of
Kumeyaay Indians
Federated Indians
of Graton Rancheria
Guidiville Rancheria
of California
Habematolel Pomo
of Upper Lake Tribe
Hoopa Valley Tribe
Iipay Nation of
Santa Ysabel
Ione Band of
Miwok Indians
Jamul Indian
Village of California
Karuk Tribe

App. 3
Kashia Band of Pomo
Indians of the
Stewarts Point Rancheria
Manchester-Point Area
Band of Pomo Indians
Mechoopda Indian Tribe
of Chico Rancheria
Mooretown Rancheria
of Maidu Indians
of California
North Fork Rancheria
of Mono Indians
Pala Band of
Mission Indians
Pechanga Band of
Luiseño Indians
Redding Rancheria
Resighini Rancheria
Rincon Band of
Luiseño Indians
Round Valley Indian Tribes
Santa Rosa Band of
Cahuilla Indians
Santa Ynez Band of
Chumash Indians
Sherwood Valley Band
of Pomo Indians
Shingle Springs Band
of Miwok Indians
Susanville Indian
Rancheria
Torres Martinez Desert
Cahuilla Indians

United Auburn
Indian Community
Wilton Rancheria
Yocha Dehe Wintun Nation
Yurok Tribe
Colorado
Southern Ute Indian Tribe
Connecticut
Mashantucket (Western)
Pequot Tribe
Mohegan Tribe of Indians
of Connecticut
Florida
Miccosukee Tribe of
Indians of Florida
Idaho
Kootenai Tribe of Idaho
Nez Perce Tribe
Shoshone-Bannock
Tribes of the Fort
Hall Reservation
Indiana
Pokagon Band of
Potawatomi Indians,
Michigan and Indiana
Kansas
Iowa Tribe of Kansas
and Nebraska

App. 4
Kickapoo Tribe of the
Kickapoo Reservation
in Kansas
Prairie Band
Potawatomi Nation
Sac and Fox Nation
of Missouri in Kansas
and Nebraska
Louisiana
Chitimacha Tribe
of Louisiana
Jena Band of
Choctaw Indians
Tunica-Biloxi Indian Tribe
Maine
Aroostook Band of Micmacs
Houlton Band of
Maliseet Indians
Penobscot Nation
Massachusetts
Wampanoag Tribe of
Gay Head (Aquinnah)
Michigan
Keweenaw Bay
Indian Community
Lac Vieux Desert Band of
Lake Superior
Chippewa Indians
Match-E-Be-Nash-She-Wish
Band of Pottawatomi

Indians (a/k/a the
Gun Lake Tribe)
Nottawaseppi Huron Band
of the Potawatomi
Sault Ste. Marie Tribe of
Chippewa Indians
Minnesota
Fond du Lac Band of
Lake Superior Chippewa
Red Lake Band of
Chippewa Indians
Shakopee Mdewakanton
Sioux Community
Mississippi
Mississippi Band
of Choctaw Indians
Montana
Assiniboine and Sioux
Tribes of the Fort Peck
Indian Reservation
The Confederated Salish
and Kootenai Tribes
Fort Belknap Indian
Community of the Fort
Belknap Reservation
of Montana
Little Shell Tribe
of Chippewa
Indians of Montana

App. 5
Nebraska
Ponca Tribe of Nebraska
Nevada
Walker River Paiute Tribe
New Mexico
Pueblo de Cochiti
Pueblo of Jemez
Pueblo of Laguna
Pueblo of San Felipe
New York
Saint Regis Mohawk Tribe
Seneca Nation of Indians
North Carolina
Eastern Band of
Cherokee Indians
North Dakota
Spirit Lake Tribe
Three Affiliated Tribes of
the Fort Berthold
Reservation
Turtle Mountain Band of
Chippewa Indians
Oklahoma
Choctaw Nation
of Oklahoma
Citizen Potawatomi Nation

Delaware Tribe of Indians
Eastern Shawnee
Tribe of Oklahoma
Miami Tribe of Oklahoma
Muscogee (Creek) Nation
Osage Nation
Peoria Tribe of Indians
of Oklahoma
Shawnee Tribe
Wyandotte Nation
Oregon
Confederated Tribes of
the Grand Ronde
Community of Oregon
Confederated Tribes
of Siletz Indians
Confederated Tribes of
the Umatilla Indian
Reservation
Cow Creek Band of
Umpqua Tribe of Indians
The Confederated Tribes
of the Warm Springs
Reservation of Oregon
South Dakota
Oglala Sioux Tribe
Rosebud Sioux Tribe

App. 6
Texas
Alabama-Coushatta
Tribe of Texas
Kickapoo Traditional
Tribe of Texas
Ysleta del Sur Pueblo
Utah
Confederated Tribes of the
Goshute Reservation
The Paiute Indian Tribe
of Utah (Cedar Band of
Paiutes, Kanosh Band
of Paiutes, Koosharem
Band of Paiutes, Indian
Peaks Band of Paiutes,
and Shivwits Band
of Paiutes)
Virginia
Chickahominy Indian Tribe
Chickahominy Indian
Tribe—Eastern Division
Monacan Indian Nation
Nansemond Indian Nation
Pamunkey Indian Tribe
Upper Mattaponi
Indian Tribe

Washington
Confederated Tribes and
Bands of the
Yakama Nation
Kalispel Tribe of Indians
Lower Elwha Klallam
Tribe (aka Lower Elwha
Tribal Community)
Nisqually Indian Tribe
Nooksack Indian Tribe
Port Gamble
S’Klallam Tribe
Puyallup Tribe of Indians
Samish Indian Nation
Sauk-Suiattle Indian Tribe
Squaxin Island Tribe
Suquamish Tribe
Swinomish Indian
Tribal Community
Tulalip Tribes
Wisconsin
Menominee Indian
Tribe of Wisconsin
Red Cliff Band of
Lake Superior
Chippewa Indians
St. Croix Chippewa
Indians of Wiscon

App. 7
AMICUS CURIAE NATIONAL TRIBAL
ORGANIZATIONS ON THIS BRIEF:
Association on American Indian Affairs
National Congress of American Indians
National Indian Child Welfare Association

AMICUS CURIAE OTHER NATIONAL
AND REGIONAL TRIBAL
ORGANIZATIONS ON THIS BRIEF:
Arctic Slope Native Association
Association of Village Council Presidents
Bristol Bay Native Association
Chugachmiut
Eight Northern Indian Pueblos Council, Inc.
Kawerak, Inc.
Kodiak Area Native Association
Maniilaq Association
Tanana Chiefs Conference
Alaska Native Tribal Health Consortium
Bristol Bay Area Health Corporation
Indian Health Council, Inc.
Navajo Health Foundation – Sage Memorial Hospital
Northwest Portland Area Indian Health Board
Norton Sound Health Corporation
Riverside-San Bernardino County Indian Health, Inc.

App. 8
Alaska Native Justice Center
California Tribal Families Coalition
Nebraska Indian Child Welfare Coalition
Michigan Indian Legal Services
National Indian Justice Center
Native American Disability Law Center
Oklahoma Indian Child Welfare Association
Affiliated Tribes of Northwest Indians
Alaska Federation of Natives
Americans for Indian Opportunity
Center for Indian Law and Policy
First Alaskans Institute
Great Plains Tribal Chairman’s Association, Inc.
Native American Budget and Policy Institute
Self-Governance Communication and
Education Tribal Consortium
Tribal Law and Policy Institute

